       AUDIT OF THE 

U.S. DEPARTMENT OF JUSTICE 

 ANNUAL CLOSING PACKAGE 

  FINANCIAL STATEMENTS 

    FISCAL YEAR         2013 

     U.S. Department of Justice 

   Office of the Inspector General 

            Audit Division 


         Audit Report 14-05 

           January 2014 

                              AUDIT OF THE

                      U.S. DEPARTMENT OF JUSTICE

                       ANNUAL CLOSING PACKAGE

                        FINANCIAL STATEMENTS

                              FISCAL YEAR 2013


                  OFFICE OF THE INSPECTOR GENERAL

                         EXECUTIVE SUMMARY


       This audit report contains the Closing Package Financial Statements of the
U.S. Department of Justice (Department) for the fiscal years (FY) ended
September 30, 2013, and September 30, 2012. The Office of the Inspector General
(OIG) performed the audit in accordance with auditing standards generally accepted
in the United States of America. Effective for FY 2013, auditing standards generally
accepted in the United States of America use the term “unmodified” opinion instead
of “unqualified” opinion. The definition of the two terms is substantially the same.
An unmodified opinion means that the financial statements present fairly, in all
material respects, the financial position and the results of the entity’s operations in
accordance with U.S. generally accepted accounting principles. The FY 2013 audit
resulted in an unmodified opinion on the FY 2013 closing package financial
statements. For FY 2012, the Department received an unqualified opinion on its
closing package financial statements (OIG Audit Report No. 13-02).

       The Department’s closing package financial statements were prepared in
accordance with Volume I, Part 2 – Chapter 4700 of the U.S. Department of the
Treasury’s Treasury Financial Manual. Its purpose is to assist the U.S. Department
of the Treasury in preparing the U.S. Government Financial Report by reclassifying
the Department’s general-purpose financial statements into a standard format that
will be consolidated with other federal agencies, and by reporting the Department’s
intragovernmental balances by federal agency to facilitate elimination of
transactions between federal agencies.

       The Office of the Inspector General did not identify any material weaknesses,
nor did it report any significant deficiencies in internal control over financial
reporting or instances of non-compliance or other matters that are required to be
reported under Government Auditing Standards in the Independent Auditor’s Report
on Closing Package Financial Statements.

       The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the financial statements. However, the amounts
included for the OIG are not material to the Department’s financial statements, and
the OIG is organizationally independent with respect to all other aspects of the
Department’s activities.
